<html>
<title> - ASSISTIVE TECHNOLOGIES FOR INDEPENDENT AGING: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[Senate Hearing 108-523]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-523

    ASSISTIVE TECHNOLOGIES FOR INDEPENDENT AGING: OPPORTUNITIES AND 
                               CHALLENGES

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             APRIL 27, 2004

                               __________

                           Serial No. 108-33

         Printed for the use of the Special Committee on Aging


                    U.S. GOVERNMENT PRINTING OFFICE
94-289                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Alaska                  EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1
Statement of Senator Elizabeth Dole..............................     2

                           Panel of Witnesses

Eric Dishman, director and senior research scientist, Proactive 
  Health Research, Intel Corporation, and chair of Center for 
  Aging Services Technologies, a Program of the American 
  Association of Homes and Services for the Aging................     4
Martha Pollack, professor of Electrical Engineering and Computer 
  Science, University of Michigan................................    57
Lydia Lundberg, owner, Elite Care, Oatfield Estates, a 
  Residential Care Facility, Milwaukie, OR.......................    68
Joseph F. Coughlin, Ph.D., director, MIT AgeLab & New England 
  University Transportation Center, Massachusetts Institute of 
  Technology.....................................................    81
Stephen McConnell, senior vice president, Advocacy & Public 
  Policy, Alzheimer's Association................................    93
Ronald Seiler, M.S.Ed., project director, Idaho Assistive 
  Technology Project, Center on Disabilities and Human 
  Development, University of Idaho...............................   103

                                APPENDIX

Statement from the American Foundation for the Blind.............   145
Statement from Dr. Gregory L. Goodrich, president-elect of the 
  Association for Education and Rehabilitation of the Blind and 
  Visually Impaired..............................................   149
Testimony submitted by the Independence Through Enhancement of 
  Medicare and Medicaid Coalition................................   159
Testimony submitted on behalf of the Microsoft Corporation.......   169

                                 (iii)

  

 
    ASSISTIVE TECHNOLOGIES FOR INDEPENDENT AGING: OPPORTUNITIES AND 
                               CHALLENGES

                              ----------                              --



                        TUESDAY, APRIL 27, 2004

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-628, Dirksen Senate Office Building, Hon. Larry E. Craig 
(chairman of the committee) presiding.
    Present: Senators Craig and Dole.

     OPENING STATEMENT OF SENATOR LARRY E. CRAIG, CHAIRMAN

    The Chairman. Good morning, everyone. The Senate Special 
Committee on Aging will convene. The topic of today's hearing 
is Assistive Technologies for Independent Aging. We are 
extremely pleased to have all of you with us this morning and 
to get a glimpse of what I think will be a better future for 
America's aging population.
    I am speaking of the potential of assistive technologies. 
Advances in such technologies have the potential of 
revolutionizing how seniors and their families experience the 
aging process, most importantly, by improving seniors' quality 
of life and making it possible to remain independent in the 
comfort of their homes and their communities.
    This comes not a moment too soon. Worldwide, the number of 
people over the age of 60 will nearly double in the next 
several decades, and of course, here at home 70 million baby-
boomers will begin retiring only a few short years from today.
    For seniors and their families, assistive technologies 
offer hope. For America's technological industries, it offers 
an exciting and expanding marketplace. For policymakers, it 
offers real potential to free up scarce resources, resources 
urgently needed as America ages. This morning we will see 
firsthand demonstrations of some of the cutting edge assistive 
technologies being developed by America's technological 
companies and our universities. Importantly, however, we will 
also be talking about the very real challenges we are facing in 
bringing these technologies out of the lab and into the 
marketplace, and from there into America's seniors' homes.
    For example, some of the witnesses here today will testify 
that America's technologies sector has not yet fully embraced 
the potential market for such technology. Others will speak 
about the challenge of translating new technologies into 
products that are both affordable and practical. Even the most 
brilliant technology can fall short in that it may be too 
expensive or too complex for the average senior to use. Through 
the leadership of organizations like the Center for Aging 
Services Technologies, otherwise known as CAST, these 
challenges are beginning to get the attention they deserve.
    Our purpose here today is to highlight both the dazzling 
opportunity and the real challenges that lie ahead as we seek 
to bring life-enhancing assistive technologies to America's 
seniors. We appreciate our witnesses and the contributions they 
will bring before the committee today.
    Before I introduce our witnesses, let me recognize Senator 
Dole, who has joined us, for any opening comments you would 
wish to make.

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you, Chairman Craig. I appreciate your 
holding this hearing so that we can discuss openly today the 
opportunities and challenges brought about by the latest 
technologies in elderly care.
    I certainly want to thank our witnesses who have come today 
to facilitate and educate an open discussion on the newest 
advancements in technological assistance for our seniors.
    As you know, I lost my precious mother back in January, and 
she would have been, 4 months later, 103-years-old. So, 
obviously, she has benefited from technological assistance in 
being able to stay in her own home almost to the ripe age of 
103.
    The cost of elderly health care in America is rising almost 
as quickly as the number of those in need of such attention. 
Studies have indicated that by the year 2040, 30 percent of our 
population will be considered older. That is over one third of 
our country that could be in need of some sort of specialized 
attention, be it in an assisted living facility, private home 
care, or a full-scale retirement home.
    In this age of astounding medical progress, preventive care 
is a key factor in many aging Americans' lives. Today's 
technology affords our senior options our grandmothers and 
grandfathers never even dreamed of. High-tech innovation, such 
as everyday activity assistance, fall prevention canes and Pill 
Pets act as independent living assistance for the elderly, as 
well as offering reassurance to loved ones concerned about the 
risk their aging family members have in being alone.
    I look forward to hearing more about each of these 
advancements as well as many others in today's hearing. The 
amount of money we Americans have invested to increase the 
average life span, of course, reaches into the billions. While 
medical progress has succeeded in pushing up the average life 
expectancy, we failed to adequately address how we can 
approximately care for the millions of Americans now living 
well into their 70's, 80's and beyond, such as my mother. Many 
of today's technologies in aging medical care can offset some 
of the financial burden of the increasing number of seniors 
seeking health care. It is time Congress considers the 
individual benefits of technological assistance as well as the 
economic ones.
    I look forward to your testimony this morning.
    Thank you, Mr. Chairman.
    The Chairman. Elizabeth, thank you very much.
    Before I introduce our panelists, let us proceed this way. 
We are going to take your testimony, and then several of you 
have some demonstrations, and I understand there is a bit of a 
problem of plugging and unplugging, so we will then, after all 
of your testimonies, we will do the demonstrations, and then I 
have a series of questions I would like to engage all of you 
in.
    Elizabeth, when you were mentioning your mother, I was 
thinking it is happening more and more. We understand numbers 
and demographics and we see this aging population out there, 
and we hear about centenarians and the number that are here. 
During the Easter break I attended a 100th birthday of a second 
cousin, and I then later went to a national convention in which 
the emcee of the convention of some thousands gathered--and it 
is an old organization of 133 years--said, ``Who is the oldest 
member here?'' Finally, it was determined that it was a man who 
was 99. He walked up, walked on stage and delivered a 5-minute 
speech that I would have been proud to claim as mine, and I 
think, ``Oh, my goodness, those are not just numbers on a page 
out there. They really are people,'' and it constantly reminds 
me of our work, and of course, improving the quality of life of 
those who live longer, and that is what we are all about.
    Senator Dole. Indeed.
    The Chairman. We are very fortunate to have with us today 
several of the country's leading experts on assistive 
technology and its potential application for senior 
populations. Some of these witnesses have brought with them 
examples of their work, and we will get introduced to one of 
them. I understand she is a bit under the weather.
    Anyway, while we are with that, let me first introduce Eric 
Dishman, as the Director of the Intel Corporation's Innovative 
Proactive Health Strategy Research Project, and also the 
National Chairman of CAST, the Center for Aging Services 
Technology.
    Next we will hear from Martha Pollack. Martha is a 
professor of Engineering and Computer Science at the University 
of Michigan, and is one of the country's leading academic 
scientists in developing assistive technologies for persons 
with cognitive impairments.
    Next we will go to Lydia Lundberg. Lydia comes to us from 
Milwaukie, Oregon, where she is the owner and founder of Elite 
Care, one of the country's most technologically sophisticated 
residence care facilities for seniors.
    Next we will go to Joseph Coughlin. Joe is the founder and 
director of the MIT AgeLab, one of the world's foremost 
academic centers for the interdisciplinary study of the 
application of technology for the needs of our seniors.
    Then we will go to Stephen McConnell. Steve is the vice 
president of Public Policy and Advocacy for the Alzheimer's 
Association, and will speak to us about growing care burdens 
associated with of course that terrible disease.
    Finally, we will visit with Ron Seiler, director of the 
Idaho Assistive Technology Project at the University of Idaho. 
Ron has worked tirelessly for many years to help bring needed 
assistive technologies to disabled and senior Idahoans, 
especially those that live in rural parts of our State.
    We thank you all for being with us this morning. Now, Eric, 
we will turn to you, Eric Dishman, director of Intel 
Corporation's Innovative Proactive Health Strategy Research 
Project.

    STATEMENT OF ERIC DISHMAN, DIRECTOR AND SENIOR RESEARCH 
 SCIENTIST, PROACTIVE HEALTH RESEARCH, INTEL CORPORATION, AND 
 CHAIR, CENTER FOR AGING SERVICES TECHNOLOGIES, A PROGRAM FOR 
  THE AMERICAN ASSOCIATION OF HOMES AND SERVICES FOR THE AGING

    Mr. Dishman. Good morning, Chairman Craig and members of 
the committee. Thank you for holding these important hearings. 
I am honored to be here today both representing Intel 
Corporation and CAST, the Center for Aging Services 
Technologies.
    Before I even get into that, I should mention when I was 
16, living in North Carolina, I am from Charlotte originally, I 
was a caregiver for my grandmother who had Alzheimer's, so I 
have been thinking about this for a good 20 years. I am 36-
years-old. Everyone is like, ``Why are you focused on aging?'' 
I am always the youngest person in the room at most of these 
conferences on aging, but I have been thinking about this for 
20 years in trying to figure out what might we have done to 
help mitigate some of the effects that that disease had on my 
family.
    I am a social scientist. I am not your typical Intel 
person. I have spent the last 12 years working in high-tech 
companies, and in so doing, I have visited about 100 high-tech 
labs around the country, but more importantly, I have actually 
lived with and observed and had a family dinner with more than 
1,000 households across the United States, who are struggling 
with health care and care giving issues.
    When you take all of that in, after 12 years of doing that, 
I can tell you that there are literally hundreds of 
technologies sitting in the labs of American universities and 
corporations today that could dramatically improve the lives of 
all Americans, those care giving for our seniors and the 
seniors themselves, if we can figure out how to get American 
intellect and imagination and investment dollars focused on the 
health and aging issues that most of us really do not pay much 
attention to. I can tell you most people in the technology 
industry think about digital entertainment, they think about 
communication, as being the next wave of computing and 
communications technologies, but all of these things that we 
are building could radically improve people's lives in their 
everyday home, so that is the spirit in which I want to say a 
few comments today.
    About November 2002, my lab at Intel had gotten a little 
bit of press about some of the demos that you will see today, 
and I started getting calls from executives from companies 
around the Nation and from long-term care providers saying, how 
did you get Intel to talk about aging issues publicly? How do 
we get onto this bandwagon to test out some of these 
technologies?
    I started having conversations with AAHSA, the American 
Association of Homes and Services for the Aging, and what 
started out as informal conversations amongst these people who 
were e-mailing and calling over the last 2 years has just 
accelerated into what we call CAST, and now as an organization 
with more than 200 technology companies, long-term care 
providers, aging-oriented associations and university 
researchers, who have come together to try to figure out how do 
we accelerate the development of assistive home care aging in 
place technologies? How do we get them out of the lab and into 
the everyday lives of real people?
    As you well know, we did a demo day last month here in the 
Dirksen Building. There were 16 organizations, almost all of 
whom the people doing testimony today were part of the CAST 
initiative and have been leaders in getting CAST off the 
ground. That was really just to start to show a new vision for 
long-term care technologies.
    I really believe our biggest problem nationally is an 
imagination problem, not a technology problem. As I said, many 
of these technologies are sitting in labs, and no one is 
imagining the need and the market and the possibility of 
applying them to this domain.
    I am going to show you two demos later today. One is a 
fall-preventing cane, and another is what we call the Everyday 
Activity Assistant. I will not go into details of those now, 
but I want to show you, a lot of people when they think Intel, 
think personal computers. This is the kind of computer that I 
am talking about today, a little tiny computer that we call a 
``mote'', and what the magic of this little tiny computer is, 
is that it is a wireless transmitter, it is a tiny 
microprocessor. What it means is that we can start to embed 
them in the environment without tearing apart somebody's home, 
and collecting real world diagnostic or behavioral data that 
would help to intervene in a disease process. We are not 
talking about necessarily traditional computers as we have come 
to know them.
    A lot of the demos that you will see today and a lot of the 
core technologies are really about collecting real-world data 
where people live, work and play. Today our health care system 
is optimized and operationalized for once people already have a 
problem. We have lots of expensive equipment in the hospital. 
The real question is how do we shift a lot of that technology 
and that diagnostic capability into people's homes so that you 
are getting more accurate and more ongoing feedback about how 
they are doing, so that they can intervene on behalf of 
themselves or other people can help out.
    I want to just show you a couple of pictures because I 
think it is more important to start with real people than the 
technology, so I will just bring up a couple of photos from 
field work that we have done at Intel. I am going to talk about 
Barbara in a little bit. This is Barbara. She is 61. She was 
diagnosed with dementia about 2 years ago. I called her and 
said, ``Can I use your photos and your story for this?'' She 
was thrilled because she wants her life experience to help with 
other people.
    She has enormous difficulty just doing everyday activities 
like making coffee, and there are millions of households like 
this around the United States, and you are going to see later 
in the demo, if we start thinking and getting engineers in this 
world to start imagining how can we help people do everyday 
activities of living, that is a really different use of 
technology that could be really empowering for those folks.
    Just show you a couple of other photos, this is Barbara 
struggling to use the radio, so one of our challenges is making 
the technology be useful on any device that people are already 
comfortable with. That could be a television. It could be a 
radio, whatever they are still capable of using, again, not 
necessarily a traditional PC.
    We saw a lot of households who needed help with daily 
activities, leaving notes for their families, instructions on 
how to get dressed. When you are talking about young engineers 
sitting in a technology company who have not been exposed to 
this, they cannot imagine that there is somebody who possibly 
needs a technology that could help them with the sequence of 
getting dressed by themselves. They cannot imagine how 
empowering that could be for somebody to still maintain that 
activity of daily living. So again, a lot of this is really 
about imagination.
    I will close by saying why are there not more companies 
working on this? In 1990 there were 357 million people 
worldwide over the age of 65, and by 2020 it is supposed to be 
761 million. So given this huge worldwide demographic, why are 
not more companies doing this? CAST has spent a year doing 
surveys, interviews and conferences on this topic. We hear 
things from companies saying, ``We do not want our brand 
associated with aging. We are not sure what products and 
services would make the biggest difference for seniors.'' Some 
of the researchers that we have talked to say that their 
research falls between the cracks of current Government 
agencies, and a lot of people end up saying to us, ``We are too 
afraid to even do research in this domain and pull those 
technologies out of the lab because we are afraid of being 
sued.''
    So these barriers, whether they are real or perceived, are 
keeping the wall up around some of that innovation from moving 
into this domain, and I hope that with leadership today we can 
help to galvanize some action and galvanize some attention to 
these important issues, and pull those technologies and apply 
them to the aging population.
    Thank you.
    [The prepared statement of Mr. Dishman follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.001
    
    [GRAPHIC] [TIFF OMITTED] T4289.002
    
    [GRAPHIC] [TIFF OMITTED] T4289.003
    
    [GRAPHIC] [TIFF OMITTED] T4289.004
    
    [GRAPHIC] [TIFF OMITTED] T4289.005
    
    [GRAPHIC] [TIFF OMITTED] T4289.006
    
    [GRAPHIC] [TIFF OMITTED] T4289.007
    
    [GRAPHIC] [TIFF OMITTED] T4289.008
    
    [GRAPHIC] [TIFF OMITTED] T4289.009
    
    [GRAPHIC] [TIFF OMITTED] T4289.010
    
    [GRAPHIC] [TIFF OMITTED] T4289.011
    
    [GRAPHIC] [TIFF OMITTED] T4289.012
    
    [GRAPHIC] [TIFF OMITTED] T4289.013
    
    [GRAPHIC] [TIFF OMITTED] T4289.014
    
    [GRAPHIC] [TIFF OMITTED] T4289.015
    
    [GRAPHIC] [TIFF OMITTED] T4289.016
    
    [GRAPHIC] [TIFF OMITTED] T4289.017
    
    [GRAPHIC] [TIFF OMITTED] T4289.018
    
    [GRAPHIC] [TIFF OMITTED] T4289.019
    
    [GRAPHIC] [TIFF OMITTED] T4289.020
    
    [GRAPHIC] [TIFF OMITTED] T4289.021
    
    [GRAPHIC] [TIFF OMITTED] T4289.022
    
    [GRAPHIC] [TIFF OMITTED] T4289.023
    
    [GRAPHIC] [TIFF OMITTED] T4289.024
    
    [GRAPHIC] [TIFF OMITTED] T4289.025
    
    [GRAPHIC] [TIFF OMITTED] T4289.026
    
    [GRAPHIC] [TIFF OMITTED] T4289.027
    
    [GRAPHIC] [TIFF OMITTED] T4289.028
    
    [GRAPHIC] [TIFF OMITTED] T4289.029
    
    [GRAPHIC] [TIFF OMITTED] T4289.030
    
    [GRAPHIC] [TIFF OMITTED] T4289.031
    
    [GRAPHIC] [TIFF OMITTED] T4289.032
    
    [GRAPHIC] [TIFF OMITTED] T4289.033
    
    [GRAPHIC] [TIFF OMITTED] T4289.034
    
    [GRAPHIC] [TIFF OMITTED] T4289.035
    
    [GRAPHIC] [TIFF OMITTED] T4289.036
    
    [GRAPHIC] [TIFF OMITTED] T4289.037
    
    [GRAPHIC] [TIFF OMITTED] T4289.038
    
    [GRAPHIC] [TIFF OMITTED] T4289.039
    
    [GRAPHIC] [TIFF OMITTED] T4289.040
    
    [GRAPHIC] [TIFF OMITTED] T4289.041
    
    [GRAPHIC] [TIFF OMITTED] T4289.042
    
    [GRAPHIC] [TIFF OMITTED] T4289.043
    
    [GRAPHIC] [TIFF OMITTED] T4289.044
    
    [GRAPHIC] [TIFF OMITTED] T4289.045
    
    [GRAPHIC] [TIFF OMITTED] T4289.046
    
    [GRAPHIC] [TIFF OMITTED] T4289.047
    
    [GRAPHIC] [TIFF OMITTED] T4289.048
    
    [GRAPHIC] [TIFF OMITTED] T4289.049
    
    [GRAPHIC] [TIFF OMITTED] T4289.050
    
    The Chairman. Eric, thank you very much for that very 
enlightening testimony. If there are companies out there with 
an age bias, my attitude toward them as I age will change. 
[Laughter.]
    Mr. Dishman. Vote with your wallet. [Laughter.]
    The Chairman. Now let us turn to Martha Pollack. Martha is 
a professor of Engineering and Computer Science at the 
University of Michigan, and is one of the leading scientists in 
the area of assistive technologies.
    Martha, welcome to the committee.

    STATEMENT OF MARTHA E. POLLACK, PROFESSOR OF ELECTRICAL 
 ENGINEERING AND COMPUTER SCIENCE, UNIVERSITY OF MICHIGAN, ANN 
                           ARBOR, MI

    Ms. Pollack. Thank you, Mr. Chairman. Mr. Chairman and 
Senator Dole, I really want to thank you for holding this 
hearing on this very important topic.
    Today I want to describe to you some advanced technologies 
that have the potential to help our Nation meet the challenges 
posed by its rapidly aging population. Let me be clear at the 
outset, technology is not a panacea. It will never and should 
never replace human caregiving. But when used to supplement 
human caregiving, advanced technologies that are now emerging 
in the laboratory have the potential to greatly improve the 
quality of life for older adults and their caregivers.
    Let me give you a few examples. My first two examples are 
systems developed by a consortium of researchers at the 
University of Michigan, University of Pittsburgh, Carnegie 
Mellon and Stanford. Autominder is a system designed to remind 
people with memory decline about their daily activities, so 
things like taking medicine and eating regularly. You can go 
out today and buy reminder systems, but generally they function 
like glorified alarm clocks, issuing fixed reminders for 
activities at pre-specified times, and this inflexibility 
greatly limits their effectiveness. Older adults, just like 
younger adults, do not follow ironclad schedules. In contrast, 
Autominder attempts to provide flexible personalized reminders. 
It can either run on a hand-held computer that will connect 
wirelessly to a variety of sensors, or more futuristically, on 
Pearl, the mobile robot that we have brought with us today.
    Let us consider a typical Autominder user who I will call 
Claire, a forgetful, 80-year-old, diabetic woman, who is 
supposed to eat a meal or a snack every 4 hours and who 
currently has an infection that requires her to take 
antibiotics on a full stomach. We do not tell Autominder that 
Claire has to take her medicine at say, 8 a.m. Instead we just 
tell it that she has to take the medicine at the same time as 
she eats breakfast and dinner, and then whenever Autominder 
recognizes that Claire is eating breakfast, it will remind her 
at that time to take her medicine if she forgets to do so. It 
does this by popping up a message in large type or by speaking 
aloud in a synthesized voice.
    Similarly, we do not rigidly tell Autominder that Claire 
has to eat at 7, 11, 3 and 7. We just specify the 4-hour 
interval. If Autominder can recognize that Claire has eaten 
lunch at 11:15, it will remind her to eat again 4 hours later 
at about 3:15, maybe even a little earlier if Claire's favorite 
television program is on from 3 to 3:30. We use a variety of 
artificial intelligence techniques in Autominder to achieve 
this kind of flexibility.
    My second example is IMP, a walker designed for people who 
are disoriented. IMP has a very simple interface on which 
someone selects the location to which she wants to go, and it 
then displays a shifting red arrow that guides her there. I 
will demonstrate IMP at the end of this panel's comments today.
    My final example is a system called COACH, which has been 
developed by Canadian researchers for people with moderate to 
severe dementia. Where Autominder provides reminders for many 
distinct activities over the course of a day, COACH guides its 
user through a single activity, hand washing, providing cues 
whenever a step such as soaping, rinsing or drying is forgotten 
or done in the wrong order. Follow-on versions of COACH will 
provide assistance with toileting, something that is 
particularly trying for caregivers.
    There are many more projects that I could describe to you, 
but I hope that these three are sufficient to convince you of 
the promise that is inherent in assistive technology for older 
adults. Yet there are significant technological challenges that 
must be met to realize this potential. First of all, there will 
need to be fundamental advances in using wireless sensor 
technology to monitor and measure activities of daily living. 
Second, since extensive customization for each user will be 
economically infeasible, artificial intelligence techniques 
need to be developed to make these systems work. Third, work on 
human computer interaction must by pursued to design interfaces 
that are extremely easy to use by people who may not only be 
cognitively impaired but may also have visual, auditory and/or 
motor difficulties. Finally, these systems raise crucial 
privacy concerns which must be addressed from both the 
technological and policy perspectives.
    Currently it can be difficult to find sufficient funding to 
support university research on assistive technology for elders 
because the work tends to fall between the cracks of agencies 
like the NSF, which supports scientific and engineering trials 
but not clinical trials, and the NIH, which traditionally has 
not funded computer science.
    To ensure that assistive technology will be ready by the 
time we as a Nation need it, I would propose that this 
committee explore the possibility of developing a cooperative 
funding mechanism that provides a stable source of support. 
This could plausibly involve a joint program of the NSF and the 
newly formed National Institute on Biomedical Imaging and 
Bioengineering, NIBIB, or the NIA.
    I personally feel very fortunate to be conducting research 
that can have such significant societal benefit, and I feel 
fortunate to be doing it at the University of Michigan where I 
have access to expert faculty and intelligent students from the 
many disciplines that must work together to make the promise of 
assistive technology real.
    I look forward to the day that this technology is in wide 
use, helping older adults live better lives.
    Thank you very much.
    [The prepared statement of Ms. Pollack follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.051
    
    [GRAPHIC] [TIFF OMITTED] T4289.052
    
    [GRAPHIC] [TIFF OMITTED] T4289.053
    
    [GRAPHIC] [TIFF OMITTED] T4289.054
    
    [GRAPHIC] [TIFF OMITTED] T4289.055
    
    [GRAPHIC] [TIFF OMITTED] T4289.056
    
    [GRAPHIC] [TIFF OMITTED] T4289.057
    
    [GRAPHIC] [TIFF OMITTED] T4289.058
    
    [GRAPHIC] [TIFF OMITTED] T4289.059
    
    The Chairman. Martha, thank you very much for that 
testimony, and we look forward to your demonstrations.
    Now let me turn to Lydia Lundberg. As I mentioned, she 
comes from Milwaukie, OR, where she is the owner and founder of 
Elite Care, one of the country's most technologically 
sophisticated residential care facilities for seniors.
    Welcome to the committee.

   STATEMENT OF LYDIA LUNDBERG, OWNER, ELITE CARE, OATFIELD 
     ESTATES, A RESIDENTIAL CARE FACILITY IN MILWAUKIE, OR

    Ms. Lundberg. Thank you, Chairman Craig and Senator Dole, 
for holding this hearing, and I am very honored to be here.
    In 1971 I immigrated to this country from Germany, and the 
only job I could find was as a nursing aide in a skilled 
nursing facility. So here I am today, and I think it speaks 
loudly for all things are possible in this country if you work 
hard at it.
    Our facility in Milwaukie, we are getting many visitors 
from around the world to see what we are trying to accomplish 
there. I am also on the commission of CAST, and I speak around 
the world actually on the subject of technology.
    We are a family run entrepreneurial business and we believe 
that if we are to enjoy our own old age, we need to shift the 
paradigm of elder care. We are investing our retirement savings 
to develop a system for long-term care that incorporates both 
technology and our mission to create elder-directed 
communities.
    While many see the increasing numbers of frail elders as a 
burden on our society, we believe that they are part of the 
solution. With the use of the power of the proper assistive 
technologies, they can retain their active positive role and 
contribute to their environment regardless of where they live.
    With our design of the Extended Family Residence and the 
use of technology, we are creating the farm families of the 
past while integrating technology of the future. In this model 
every generation has value and purpose.
    Information gleaned from the technology is used to allow 
elders to live and engage in purposeful life.
    In addition, our family portal, which is the one of the 
things I will demonstrate, brings peace of mind to the families 
of the elderly. Today, the lack of information about parents 
causes the kids to worry. We are constantly thinking, ``Mom got 
lost coming home from the store yesterday. She cannot live by 
herself any more. What is Mom doing all day? Is she eating 
properly?'' When Alzheimer's or short-term memory loss is 
involved, kids tend to fix the problem by incarcerating their 
parents in locked facilities.
    We have personal experience with this. My father was just 
diagnosed with congestive heart failure in Germany, so I am 
trying to deal with all this long distance, and my husband's 
mother lives in Florida, who thankfully is still quite healthy.
    About 50 percent of our residents would be in locked 
Alzheimer's facilities. Instead, they live in 12-suite houses 
where they can participate in life to the best of their 
abilities. Residents are not separated by diagnosis or 
cognitive ability. The technology supports their independence, 
safety, and puts the family's mind at ease.
    Although we are a residential care facility, the technology 
and algorithms we are developing will enable all elders to 
function at higher levels, thus keeping them in their own home 
longer, in assisted living or residential care facilities 
longer, and hopefully keeping them out of skilled nursing 
facilities and hospitals.
    In order to take us further, some of the areas where I 
think we really need help are as follows. There should be more 
opportunities in research dollars for supporting long-term care 
technology, especially where the private sector can benefit 
from such grants as the NIST ATP Grant, which we happen to have 
applied for.
    We also are trying to develop partnerships with 
universities, such as Oregon Health Sciences University and 
companies like Intel. It is challenging to bring together 
providers, researchers and tech companies to work together on 
these problems. It is critical that we do so.
    More work needs to be done to develop sensors that are cost 
effective and are easily used for automatic data collection. 
This can lead to predicting falls, strokes, heart attacks, thus 
allowing for interventions that may prevent these things from 
happening. There can be great savings in health care costs, 
great maintenance of quality of life.
    There should be tax incentives to encourage early adopters. 
One of the biggest struggles with taking a system such as ours 
to other facilities would be how can I pay for it? What is my 
return on this?
    We need to look at how the reimbursement of costs can be 
for implementing technology. Could there be a reduction in 
liability insurance? Will there be a reduction in management 
staff? Can insurance and Medicare payments for implementing 
technologies in homes by used?
    Then one of the other big areas where the Government can 
help would be to encourage and accept electronic data for 
Medicare reimbursement and quality control standards.
    Thank you very much.
    [The prepared statement of Ms. Lundberg follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.060
    
    [GRAPHIC] [TIFF OMITTED] T4289.061
    
    [GRAPHIC] [TIFF OMITTED] T4289.062
    
    [GRAPHIC] [TIFF OMITTED] T4289.063
    
    [GRAPHIC] [TIFF OMITTED] T4289.064
    
    [GRAPHIC] [TIFF OMITTED] T4289.065
    
    [GRAPHIC] [TIFF OMITTED] T4289.066
    
    [GRAPHIC] [TIFF OMITTED] T4289.067
    
    [GRAPHIC] [TIFF OMITTED] T4289.068
    
    [GRAPHIC] [TIFF OMITTED] T4289.069
    
    [GRAPHIC] [TIFF OMITTED] T4289.070
    
    The Chairman. Lydia, thank you very much.
    Now let me turn to Joe Coughlin. He's the founder and 
director of the MIT AgeLab, one of the world's foremost 
academic centers for the interdisciplinary study of the 
application of technologies on the needs of seniors.
    Joe, welcome to the committee.

STATEMENT OF JOSEPH F. COUGHLIN, Ph.D., DIRECTOR, MIT AGELAB, & 
  NEW ENGLAND UNIVERSITY TRANSPORTATION CENTER, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Mr. Coughlin. Thank you, Mr. Chairman, and Senator Dole, 
and thank you very much for inviting me here to represent my 
team back at MIT and the many researchers that are involved.
    In many ways, it is a nice surprise to be here, because if 
you think about it, what we are talking about really is 
celebrating a policy success, and that is that the investments 
over the past 100 years have actually gotten us to live longer, 
and now that we are living longer we are saying, what are we 
going to do with that time, that bonus, if you will.
    Senator Dole, you inspired me with a similar story of your 
mother living to the grand old age of 103, 104, thereabouts. 
Sarah Knauss in Pennsylvania lived to 119-years-old, and she 
framed our challenged far better than any of us in academia 
certainly can that often lack poetic prose. That is that she 
enjoyed her longer life because she had her health and she 
could do things. So that is the policy challenge here. How do 
we enable people to live longer by having their health and to 
do things? Because simply having the time does not necessarily 
mean that you are going to have quality of life.
    My presentation, if you will, or thoughts on the matter are 
twofold. One, is to talk to the technology, and two, to 
hopefully leave you with some policy thoughts as to where we 
might go with this.
    I would rather not describe the technology functionality 
per se, but really challenge the assumption that what we want 
to do is to use technology to do what we do better. I would 
submit to you that we do not want to do that, and anyone who 
uses technology to do what they do today better, is actually 
not getting their return on investment and it is not a very 
good use of Federal R&D dollars as well. We want to use 
technology to do things differently, to think differently about 
the future of aging entirely, thinking about how it is going to 
bring different players to the table, thinking about how it is 
going to redefine our quality of life, and thinking about new 
ways of indeed paying and creating, if you will, inventing a 
lifestyle, not for the frail elderly, but for those of us in 
middle age so that when we become frail these things are 
already in place.
    To make that happen I would point to you a converging 
coalition of expectations. One: adult caregivers and the older 
adults themselves. People now are sandwiched, if you will, as 
you must have heard of the boomer generation that are 
interested in not only spending dollars but searching for 
solutions, if you will, to care for themselves and to care for 
their parents. Employers are a new partner at the table, not 
just in R&D, not just in terms of seeing this as a market, but 
the amount of lost productivity of caregivers coming to work 
late, leaving early or taking long lunches to take care of Mom, 
Dad or a spouse, is a very real drain on their own 
productivity.
    The distinguished Senator whose name is on this building 
once said that with a billion here and a billion there, pretty 
soon you are talking real money. One study suggests that there 
is upwards of $29 billion of lost productivity in the workplace 
due to caregiving. I would submit to you that that is real 
money.
    Chairman Craig, your own Governor from Idaho is leading the 
National Governors Association on long-term care. They are 
struggling with the fact that 25 percent of the budgets in 
State houses today are going to health and aging. There is a 
now emerging coalition of families, governments and others, 
looking for real solutions. So this growing alignment is 
actually an opportunity politically to build the coalition to 
match it with now what are, as you can see in front of you, an 
abundance of solutions that are chasing the problems associated 
with aging.
    So just three very quick ideas that we are working on to 
show you not the functionality of the technology but how it is 
different.
    Retail health: Using the information technology and the 
sensors that we are going to be talking about later on today to 
envision how the drugstore, the grocery store and institutions 
that are quintessentially private, may provide care and 
assistance in making decisions in real time in the shopping 
time about healthy decisions.
    Senator Dole, you were kind enough to mention our Pill Pet. 
The idea of using emotions and guilt, if you will, to remind 
people to take their meds, using the pharmacist, if you will, 
as part of that compliance effort as well. Facilitating that 
check up a day, using sensors to make people be able to manage 
congestive heart failure, diabetes in the home. That is 
actually not exactly very new news. Telemedicine has been with 
us for 40 years. If it is such a good idea, why is it going 
nowhere fast? I will submit to you that its great promise now 
is bringing together players that we have never thought of 
before. In Japan, Tokyo Power and Electric is now providing 
telemedicine to the home. Here in the United States, as 
indicated by the Comcast event a few weeks back, we are now 
looking at Phillips and perhaps even Comcast Cable looking at 
bringing health to the home via our cable channel.
    Let me quickly advance to one last thing which is the 
transportation issue. How can we look at transportation to make 
driving and mobility a continuing issue of safety and 
independence and freedom, using technology to make the car 
smarter for that.
    Let me close very quickly, and we can talk more about 
questions on what are those policy indications that we may want 
to think about? One, to reinforce Eric's point, is the idea of 
creating markets, and I would suggest to you that believe it or 
not I may be one of the first academics here, much to the 
chagrin of my colleagues, to ask not for money from the Federal 
Government for R&D, but actually to create tax credits for 
people that want to buy these systems in their home, to have 
companies want to invest in R&D and to have companies invest in 
elder care. If the market is there, they will get over their 
age bias. They will find that there is a market. They will find 
that there is a need.
    Second, yes, we do need research and education, not in the 
way you may think. I think we do need a stable line that has 
been talked about by Martha Pollack in terms of research for 
R&D, but there is a technological literacy problem with the 
folks who will use these technologies. The social workers, the 
gerontologists, the physicians, the nurses, who are high touch 
but are low tech, do not understand how this is going to 
fundamentally change their practice and business.
    Last, I would leave you with the third area, which is to 
facilitate partnerships. We need the Federal Government's 
support to engender a certain courageous attitude on the part 
of business, universities and caregivers, that it is OK to work 
with, say the local grocery store, to find new and novel ways 
of delivering nutrition services in the region, that it is OK 
to work with a university about commercializing a product. It 
is all right now to work with Government agencies of all levels 
to deliver care in ways we have never thought of.
    Thank you very much for this opportunity and I look forward 
to your questions.
    [The prepared statement of Mr. Coughlin follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.071
    
    [GRAPHIC] [TIFF OMITTED] T4289.072
    
    [GRAPHIC] [TIFF OMITTED] T4289.073
    
    [GRAPHIC] [TIFF OMITTED] T4289.074
    
    [GRAPHIC] [TIFF OMITTED] T4289.075
    
    [GRAPHIC] [TIFF OMITTED] T4289.076
    
    [GRAPHIC] [TIFF OMITTED] T4289.077
    
    [GRAPHIC] [TIFF OMITTED] T4289.078
    
    [GRAPHIC] [TIFF OMITTED] T4289.079
    
    The Chairman. Joe, provocative testimony. Thank you very 
much.
    Now let me turn to Steve McConnell, vice president for 
Public Policy and Advocacy for the Alzheimer's Association.
    Steve, welcome to the committee again.

STATEMENT OF STEPHAN McCONNELL, SENIOR VICE PRESIDENT, ADVOCACY 
            & PUBLIC POLICY, ALZHEIMER'S ASSOCIATION

    Mr. McConnell. Thank you, Mr. Chairman, Senator Dole. Thank 
you for calling this hearing today and for inviting the 
Alzheimer's Association. We appreciate your leadership and we 
appreciate your terrific staff as well.
    This committee and the members of this committee understand 
the epidemic of Alzheimer's disease as well as anybody. There 
are 4\1/2\ million people now with Alzheimer's disease. That 
will grow to as many as 16 million by the middle of this 
century because of the aging of the baby boom population. One 
in 10 Americans over 65 and nearly half of those over 85 are 
suffering from Alzheimer's disease. Alzheimer's is the most 
important problem in our long-term care facilities. More than 
half of residents in nursing homes and at least half in 
assisted living have Alzheimer's disease.
    As a result of that, we will see Medicare expenses for 
dementia-related care increase by more than 50 percent in this 
decade alone, and Medicaid expenses by 80 percent. American 
business is spending $61 billion dealing with an Alzheimer's 
disease.
    So the Alzheimer's Association believes that assistive 
technology can be helpful, helpful to caregivers, helpful to 
people with this disease, helpful in advancing the day when we 
have treatments and eventually a cure.
    I would like to mention three areas where technology can 
play a role. In the area of diagnosis and the development of 
treatments, there is an initiative now under way sponsored by 
the National Institute on Aging and the pharmaceutical 
industry, with support from organizations like the Alzheimer's 
Association, to look at imaging technology, MRIs and PET scans, 
to be able to detect changes in the brain more quickly. This is 
important as we introduce interventions, drug and other 
interventions so we can determine their effectiveness much more 
quickly. Without this technology, we must want 10, or 15, or 20 
years for a number of people to develop Alzheimer's disease to 
determine if the intervention is effective. So Technology can 
be very helpful in diagnosing and also advancing the day that 
we have treatments available for people.
    Second, technology can help caregivers. This committee 
knows that most caregivers are family and friends, and 
caregiving is very stressful. One in eight caregivers of people 
with Alzheimer's disease suffers injuries or illnesses because 
of their caregiving. One in three older caregivers suffer 
clinical depression. We know that older spouse caregivers are 
more likely to die because of their caregiving 
responsibilities.
    Technology can support caregivers, and we are not only 
talking about family caregivers but paid caregivers as well, 
who are underpaid, and under appreciated. There is high 
turnover. Technology can help by supporting people with this 
disease so they can live more independently through monitoring 
technology and other devices to reduce the stress on 
caregiving. Technology can be helpful in training caregivers as 
well through interactive voice, robotics, dynamic video and so 
forth. Of course, telemedicine and telehealth can also be 
helpful and can work for people with dementia as long as there 
is someone cognitively intact to help out.
    Finally, technology can help people with Alzheimer's 
disease. We now know that this disease begins as much as 20 
years before symptoms appear. As we have gotten better at 
diagnosis, people are being diagnosed much earlier, and that 
enables us to use technology to help people remain independent 
and to maintain a quality of life. Smart houses with automatic 
cutoff devices, kitchen heat sensors, monitors and medication 
dispensers, some of which you are hearing about today, can help 
people function independently longer. This is not only about 
cost savings and help for families and caregivers, it is also 
about human dignity.
    We believe that we have to approach this from many points 
of view in our society. The Alzheimer's Association created a 
technology work group more than 2 years ago, and last July we 
joined with Intel Corporation to create the Everyday 
Technologies for Alzheimer's Care, ETAC, which will fund 
research to identify and develop new models of Alzheimer's 
disease care based on current and evolving technologies. We 
will do this by facilitating exchange among a variety of 
disciplines from bioengineering and robotics to architecture 
and nursing. We will fund research to seek practical 
improvements in detecting and preparing for disability, for 
delaying onset of symptoms, for providing support for 
caregivers and so forth.
    We have also joined the Center for Aging Services 
Technology, CAST, sponsored by the American Association of 
Homes and Services for the Aging. We have created a Coalition 
of Hope made up of more than 150 organizations representing 50 
million people who are dedicated to eliminating the impact of 
this devastating disease.
    There are four things we would like to recommend. (1), that 
we create a national commission on technology and aging with a 
special emphasis on cognitive impairments; (2), that the 
Government support research on assistive technology in 
partnership with private industry and organizations like the 
Alzheimer's Association; (3), convening a series of hearings to 
continue to shine a light on this issue as you are doing today, 
which is very important; and finally, that we continue to 
support research so that someday we can have a world without 
Alzheimer's disease.
    In closing I would like to pick up on this notion of people 
living much longer. I am reminded of the comment by Maggie 
Kuhn, when she said that the best thing about growing older is 
you outlive your enemies. [Laughter.]
    There are many enemies to us as we age, the cognitive and 
physical assaults. Technology can help us defeat those enemies.
    Thank you.
    [The prepared statement of Mr. McConnell follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.080
    
    [GRAPHIC] [TIFF OMITTED] T4289.081
    
    [GRAPHIC] [TIFF OMITTED] T4289.082
    
    [GRAPHIC] [TIFF OMITTED] T4289.083
    
    [GRAPHIC] [TIFF OMITTED] T4289.084
    
    [GRAPHIC] [TIFF OMITTED] T4289.085
    
    [GRAPHIC] [TIFF OMITTED] T4289.086
    
    [GRAPHIC] [TIFF OMITTED] T4289.087
    
    The Chairman. Steve, thank you very much for that good 
testimony.
    Now let me turn to our last panelist, Ron Seiler, director 
of the Idaho Assistive Technology Project at the University of 
Idaho.
    Ron.

  STATEMENT OF RONALD SEILER, M.S.Ed, PROJECT DIRECTOR, IDAHO 
ASSISTIVE TECHNOLOGY PROJECT, CENTER ON DISABILITIES AND HUMAN 
                DEVELOPMENT, UNIVERSITY OF IDAHO

    Mr. Seiler. Thank you, Mr. Chairman, Senator Dole. Thanks 
for allowing me to testify on this very important occasion.
    My testimony will focus on three major points. First I 
would like to talk a little bit about what the current research 
is telling us about the potential of assistive technology for 
helping older persons. I would also like to share with you what 
lessons have been learned by the 56 Assistive Technology Act 
projects that can be of assistance to the aging network. Last, 
I would like to provide a list of recommendations for action.
    Assistive technology is redefining what is possible for 
today's older persons. Based on emerging research, based on the 
collective experiences of the Tech Act projects, and based on 
my experience as a father of a 23-year-old son with cerebral 
palsy, who uses assistive technology every day, I am convinced 
that it holds tremendous potential for helping older persons to 
be more independent, to be safer in their homes, and for 
reducing the cost of providing long-term health care.
    However, the news is not entirely good, as policymakers 
often overlook the role of assistive technology in long-term 
care, and there are a number of systemic barriers that will 
need to be overcome. This is especially true for those elders 
that live in the rural areas of our country. More about that in 
a moment, but first, what is the research telling us about the 
potential of AT now and in the future?
    The short answer is that most observers agree that 
assistive technology is and will continue to assist older 
persons to have a higher quality of life. We have good research 
that tells us that assistive technology can slow the loss of 
functional ability among frail elders, that it can improve the 
safety of elders and prevent injury, that it can help older 
persons to compensate for memory loss, confusion and other 
forms of dementia, that it can lessen the burden of care for 
informal and formal caregivers, and it can slow the rapidly 
increasing cost of providing long-term health care to elders.
    Moving from the theoretical to the practical, the 
collective experiences of the Tech Act projects have much to 
teach us about providing AT services to elders. Collectively 
these projects form a national infrastructure for assistive 
technology and represent the Nation's most valuable repository 
of experience and expertise related to the application of 
assistive technology. Perhaps the most valuable lesson learned 
by the Tech Act projects is that AT can be of great benefit to 
older persons as it has been for persons with developmental 
disabilities, but it is critical that an array of services 
support its use.
    Nearly ever Tech Act project conducts initiatives designed 
to promote the use of AT among elders. For instance, in Idaho, 
we provide Statewide assessments for older persons with complex 
technology related needs, many whom are eligible for Medicaid 
services. In one case we recently provided an assessment for a 
low-income elderly woman living in our area who just lost her 
husband, and she was considering moving into a nursing 
facility. As a result of the intervention at a cost of just 
under $2,000, the woman has now been able to live in her home 
for nearly a year near her family and friends. Compared to the 
cost of moving into a nursing facility, the intervention paid 
for itself in less than one month.
    North Dakota has a program funded by the State Pharmacy 
Association that is designed to provide a wide range of 
automated medication dispensers to older persons who have 
problems managing their medication.
    Many States operate equipment recycling programs that 
identify used assistive devices and advertise them so that 
others might benefit from their use.
    These and many other programs just like them illustrate the 
types of innovative approaches that can be used to increase the 
use of AT devices and services for older persons.
    However, as I mentioned earlier, there are a number of 
systemic barriers faced by older persons as they attempt to 
acquire and use AT. Policymakers often overlook the role of AT 
in long-term care. There is good evidence to suggest that there 
is a real basic lack of awareness among older persons, families 
and professionals about AT, especially in those living in rural 
areas. There appears to be a lack of community-based services, 
and those services that do exist are fragmented.
    However, the most significant barrier has to do with the 
funding of assistive technology. There is a lack of coverage 
for devices used to overcome cognitive impairments. Both 
Medicare and Medicaid have restrictive funding policies for 
durable medical equipment, and there is a lack of coverage in 
private and health insurance.
    In closing, how older persons will be cared for with 
maximum independence and at what cost are two of the critical 
health care issues facing this country. Most observers now 
agree that AT has an important role to play in providing long-
term care to older persons. As a result I have three 
recommendations for this committee.
    First, I recommend that the committee contact Senator 
Gregg, Chair of the HELP Committee, and urge him to complete 
the reauthorization of the Assistive Technology Act of 1998.
    Second, even though there are a number of studies that 
suggest AT can be of great benefit to older persons, there is 
no comprehensive research that is national in scope. Therefore, 
my second recommendation is for the committee to ask Congress 
to authorize a nationwide study related to older persons and 
assistive technology.
    Last, as part of this study, I recommend, as Stephen did, 
that we hold field hearings to gather more information about 
the potential of AT for meeting the needs of older persons.
    Thank you, and I would also like to enter into the record 
the comments from the Association of Tech Act Projects which I 
did not provide previously, so I would like to enter that into 
the record.
    [The prepared statement of Mr. Seiler follows:]

    [GRAPHIC] [TIFF OMITTED] T4289.088
    
    [GRAPHIC] [TIFF OMITTED] T4289.089
    
    [GRAPHIC] [TIFF OMITTED] T4289.090
    
    [GRAPHIC] [TIFF OMITTED] T4289.091
    
    [GRAPHIC] [TIFF OMITTED] T4289.092
    
    [GRAPHIC] [TIFF OMITTED] T4289.093
    
    [GRAPHIC] [TIFF OMITTED] T4289.094
    
    [GRAPHIC] [TIFF OMITTED] T4289.095
    
    The Chairman. Ron, thank you very much, and that addition 
will be made a part of the committee record.
    [The comments from the Association of Tech Act Projects 
follow:]
[GRAPHIC] [TIFF OMITTED] T4289.096

[GRAPHIC] [TIFF OMITTED] T4289.097

[GRAPHIC] [TIFF OMITTED] T4289.098

[GRAPHIC] [TIFF OMITTED] T4289.099

[GRAPHIC] [TIFF OMITTED] T4289.100

[GRAPHIC] [TIFF OMITTED] T4289.101

[GRAPHIC] [TIFF OMITTED] T4289.102

[GRAPHIC] [TIFF OMITTED] T4289.103

[GRAPHIC] [TIFF OMITTED] T4289.104

[GRAPHIC] [TIFF OMITTED] T4289.105

[GRAPHIC] [TIFF OMITTED] T4289.106

[GRAPHIC] [TIFF OMITTED] T4289.107

[GRAPHIC] [TIFF OMITTED] T4289.108

    The Chairman. Let me thank you all, and now let us turn to 
those who had products to demonstrate. Let me see, Eric, I 
believe you and Martha and who else? Lydia. All right.
    Mr. Dishman. I am going to have to stand to do this, so 
they will not all be recorded. Let me see if I can actually get 
it to work. Everybody loves it when the Intel guy brings 
technology and it does not work.
    The Chairman. I will never let you forget it.
    Mr. Dishman. That is right. [Laughter.]
    Actually, this is a project from Oregon Health and Science 
University, who are part of CAST, and I brought this along with 
me. Everyday Cane has the mote technology that I mentioned 
before, which was developed at Intel Research in Berkeley, at 
the University of California at Berkeley. It is a little tiny 
computer here attached to the cane, wirelessly transmitting. 
These little leads here all go to some really simple cheap 
sensors. Let me bring this up so you can all see the screen 
here from my laptop. Hopefully it will come up. There we go. 
Now you can see it. When I press down on the cane, what you are 
seeing on the screen here is the amount of force as I walk with 
the cane, and it is being wirelessly transmitted back to my 
laptop.
    The importance of this in the near term, this just could 
mean simply knowing that Mom has not used her cane today might 
be very interesting in and of itself, just knowing that little 
bit of information. But what Dr. Pavel at Oregon Health and 
Sciences University is doing is taking this raw data over time 
and looking at the patterns of somebody who would be using a 
cane to see if you are starting to notice an early indicator 
that they may be moving into a period of their life or a period 
of time where they are more likely to fall in time to intervene 
well before they actually start to fall.
    Longer term the hope of this is that you could actually 
start to detect diseases like Parkinson's and other 
neurological conditions by capturing this real-world, real-time 
sensor data, and catch it long before other diagnostic means of 
today.
    So this is just a very simple example that shows some of 
the core technologies and how you might embed that.
    Longer term this could actually go into shoes, this would 
not necessarily go into a cane. There is a possibility that 
everyday footwear could actually start to do this kind of 
analysis.
    The second demo I am going to ask my colleague from Intel 
Research in Seattle, Matthai here, to show you. This goes back 
to the photo of Barbara before I showed you. Barbara had 
mentioned that her husband would come down and tell us the 
highlight of Barbara's day, when she is actually able to make a 
cup of tea by herself. So we are starting on this research 
project that says, how can we track the everyday activities of 
somebody like Barbara and intervene?
    So back in our labs in Oregon we have a system that can 
know, for example, through just simple sensors that are part of 
a home security network, whether or not Barbara has gone into 
the kitchen today to get something to drink. If it is 2 o'clock 
or 3 o'clock in the afternoon, we find her on whatever device 
she is closest to and most familiar with--it may be the 
television--and actually put a prompt in there that says, ``You 
need to get something to drink,'' because if she does not, 
dehydration actually leads to memory loss as well, and now you 
do not know whether it is her Alzheimer's or whether it is the 
memory loss from dehydration that is causing the problem.
    Once she gets to the kitchen, it is not clear that she is 
still going to be able to remember the steps of walking through 
just the simple task of making tea. So what Matthai is going to 
show you here is again, little tiny tags. These are RFID tags. 
They have been in the news a lot lately because major retailers 
are starting to talk about putting these into every single 
product that is on the shelves. We are using it, once that 
product gets home, to have the system track everyday objects 
that they may be interacting with.
    So Matthai is going to put on a glove here. Today it is a 
glove. Research will actually make this eventually the size of 
something that could go into a watch, and it is literally, 
based on the object that he is picking up, the tea cup, 
noticing that that is the object that he picked up because of 
these little tags that are basically glorified bar codes. Or he 
picks up the carafe and starts to make tea out of it. The 
system, based on this little reader that he is wearing on his 
wrist and the objects that he is interacting with, is starting 
to guess that he is going about the process of making tea. This 
is very primitive today, and obviously this is just a starting 
point.
    The possibility of this, if we can start to make it work, 
is that you could develop a system such as that it could play 
little video clips for Barbara on her kitchen television, on 
whatever device she likes that says, ``Here is the tea. Here is 
the steps to go about it.'' It would not intervene until she 
started to have a breakdown, until she needed help from the 
system.
    This could actually be even valuable to people in nursing 
facilities who have to track everyday activities of living. We 
watched this today where these nurses are doing a great job, 
and frankly, at the end of the day they are trying to remember 
what was the person able to do by themselves? That is part of 
their record that gets sent up to CMS. This same core 
technology that could help Barbara stay in her own home longer, 
has the potential, if she moves into a facility, to 
automatically capture all of that data that so many of the 
nurses that we have observed in study are exhausted by trying 
to capture on paper today.
    So that is the long-term vision of where this research 
would need to go. Again, it is not computers as we know them. 
It is tiny computers that are embedded and are unobtrusive in 
our environment.
    The Chairman. Eric, thank you very much. All of that is 
fascinating.
    Martha.
    Ms. Pollack. I am going to have to come up here.
    The Chairman. Please do.
    Ms. Pollack. This is Jared Glover from Carnegie Mellon, who 
is going to help me get set up.
    While he is setting up, let me remind you that I described 
two technologies to you earlier this morning. One was a 
technology for helping people with memory deficits by providing 
them with reminders of their daily activities, and that is a 
technology very much like what Eric described, so I am not 
going to demonstrate that here.
    What I am going to demonstrate is a walker for people who 
are disoriented. Now, while Jared is getting the batteries 
unplugged, let me say that we also brought Pearl. Pearl is a 
futuristic mobile robot, and both the Autominder technology, 
the reminder technology, and the orientation technology, can 
run on Pearl. Basically Pearl can speak. She has a voice 
synthesizer. She can display large messages on her screen. But 
calibrating Pearl to a room is actually a fairly time-intensive 
process, and so we are not going to run her live today.
    Additionally, Pearl is extremely expensive. This is a one-
off robot. It costs close to $100,000 to build. It is obviously 
not something that is going to be in the homes of older adults 
in the near future. Our other technologies are much more cost 
effective and much more likely to make it into homes in the 
near term.
    The Chairman. This is taking walkers to a high level. 
[Laughter.]
    My mother-in-law was in a retirement community, and it was 
the battle of the Cadillacs vs. the Chevrolet walkers. I think 
they are losing style now.
    Ms. Pollack. This is the Lamborghini.
    The Chairman. That is the Lamborghini, all right. 
[Laughter.]
    Ms. Pollack. This walker is intended for someone, 
particularly someone living in a nursing home or an assisted 
living facility, who has become disoriented and maybe has a 
hard time remembering how to get to the cafeteria or how to get 
to the exercise room. This walker has a simple device with a 
very simple interface; you can see on the screen that it says, 
``Where do you want to go to? Here's where you are.'' Now, we 
have mapped this room out, so we have just two locations, the 
floor and the walkway. Of course, in an assisted living 
facility there would be much more. Now we will say, ``Go'', and 
the interface will give us the various options of places we can 
go. If someone could not read, you could of course have little 
pictures. I am going to say that I want to go to the walkway, 
and now what happens is a map appears to guide me--to the 
walkway. If I start to go the wrong way, you see the arrow 
turns and guides me in the right direction.
    So all I have to do is follow this arrow to get to where I 
want to go.
    The Chairman. Is that GPS?
    Ms. Pollack. No. It has actually got a laser range finder 
on here. Partly what makes this expensive is just the laser 
range finder technology.
    Because of the crowding in this room, We have only mapped 
two areas. Some people were at the demo here on Capitol Hill 
last month and they saw many more areas.
    The other thing that this system can do, although because 
of crowding again, we will not demonstrate it here, is park. So 
if you have ever been at a restaurant, for example, with an 
older adult using a walker, there is often a problem. They sit 
down and can't get the walker to a safe location. This walker 
can automatically move to a parking location and then be 
retrieved when needed.
    The Chairman. It will come back.
    Ms. Pollack. It will come back. Thank you very much.
    The Chairman. I was going to say a walker with an attitude. 
[Laughter.]
    How fascinating. Martha, and please, Senator Dole, enter 
in, one question of that. Obviously, the person using the 
walker who has forgotten his or her way needs to remember how 
to activate the system to tell it where to go.
    Ms. Pollack. That is right.
    The Chairman. How do we do that if they are in that state 
of mind?
    Ms. Pollack. That is right. We are actually in the process 
of beginning field tests to see how well this actually works, 
but the idea is to make the interface incredibly simple. Here 
we have words written out, but you could replace that with 
pictures, and often someone might be able to reason, ``I know 
this is a picture of a cafeteria. I can touch that,'' even if 
they cannot remember how to get there.
    But you are right, after a certain point of dementia it 
will not be feasible.
    The Chairman. OK. Thank you very much.
    Ms. Pollack. Thank you.
    The Chairman. Any comment or question at this point?
    Senator Dole. I have some questions, but I think you want 
to----
    The Chairman. Let us finish if we can with Lydia, and then 
we will move to questions.
    Senator Dole. Right.
    The Chairman. Yes, please.
    Ms. Lundberg. So what you are looking at here is what we 
call the family portal.
    The Chairman. This is in your current facility in 
Milwaukie, OR?
    Ms. Lundberg. That is correct. This is live. I spoke to 
this particular house----
    The Chairman. Wait a moment. This is live?
    Ms. Lundberg. Yes.
    The Chairman. So we are connecting to your facility in 
Milwaukie at this moment?
    Ms. Lundberg. Correct. This is via the Internet. it is a 
secure, password-protected connection. I am pretending to be 
Marian--who is the lady that we are following around--I am 
assuming to be her daughter because this access is for family 
and management only. But I did speak to them this morning, and 
they are all very excited to be part of this demonstration.
    So you can see that Marian is in her room right now, and so 
I am looking at this and I can tell what the temperature is in 
her room. I can tell that the door is closed. That is all I 
know right now, because she is in her room and there are no 
cameras or anything involved, so it is strictly giving me an 
idea of where she is. If you look at the top here it also tells 
me----
    The Chairman. How do you know that she is in her room. What 
sensor does she have on herself that would indicate that?
    Ms. Lundberg. She wears a badge.
    The Chairman. OK.
    Ms. Lundberg. We have sensors wired into all the rooms so 
we know which room she is in. It also tells me, if you look up 
here, that she has been there for 47 seconds, so I get an idea 
of where she has been. If she were to sit on her bed, I could 
actually get an instant weight reading, but she is not on her 
bed.
    Then I can go back and I can do some historical because we 
are collecting all this data, so I can do some historical 
checking and I can see who has been in her room, so I can see 
that this morning Genevieve was in her room for 5 minutes. Kay 
came in several times through the night to check on Marian.
    Then if I want to see where Marian has been historically 
for the last day or so, I go to this screen. I brought this up 
earlier because of time reasons.
    The Chairman. This is the result of each one of those who 
entered the facility or that location also having a badge on?
    Ms. Lundberg. That is correct, yes. All our staff wear 
badges.
    So I can tell that Marian went, if I look on the 26th at 19 
hours, which is 7 o'clock I believe, she went to her room and 
stayed there basically for the night. But if I wanted to, I can 
go through here and see where she has been spending her time. I 
can go back as far as 6 months. We are keeping this data on 
file.
    One of the other things that is very critical, and there is 
some research that is being done with Oregon Health Sciences 
Unit on load sensors, weight scale. This would be now the load 
cells for Marian's bed for the period of just one day. It takes 
a minute. So I can see that she was in bed from a little after 
9, so from 9:30 on basically until about 5:20 this morning. I 
can also see that during the day she maybe just sat on her bed.
    Now, if I would like to see how she has been doing 5 months 
ago, I can go to a different screen, and unfortunately it reset 
itself so this will take me a minute. I want to see how she did 
in December, because oftentimes you can tell when medication 
changes, sleep patterns change. Maybe she was upset about 
something, maybe depression, all kinds of things. Those are 
some of the things that Dr. Pavel actually is trying to work on 
some algorithms so we can get some actionable data on some of 
these things.
    So now it is going back into the data base, and again, this 
is live from Oatfield Estates. I can see that she actually was 
sleeping a lot less restful, and I can actually zoom in to get 
an idea how much she was tossing and turning.
    Again, this can be used for many different things. The 
big----
    The Chairman. So it not only detects her presence on the 
bed but her movement while on the bed?
    Ms. Lundberg. It is actual weight data, yes. Then finally, 
here, this locator here, this is a different house. This 
happens to be Rainier House on the second floor, and this gives 
an indication of what I can see is management. I can see who 
all is in the common area, and it is 8 o'clock there in the 
morning, so they are all pretty much gathered for breakfast. 
Some people are still in bed, and you can see this one person 
actually moving around in bed. This is real live. Maybe they 
are getting ready to get up. Susan, the caregiver, is in the 
room with Frances, so my guess is that is what they are doing, 
they are getting ready for the day.
    Thank you very much.
    The Chairman. Thank you very much. Now, you mentioned this 
woman's daughter, I believe, did you not?
    Ms. Lundberg. Yes.
    The Chairman. I am thinking of a play on words here that 
maybe is not too appropriate. We have always heard of Big 
Brother. This is taking Big Daughter to a whole new level. 
[Laughter.]
    Ms. Lundberg. Actually, initially we wanted to call the 
system Daughter 1 because daughter usually is the one that 
worries about how mother or father are doing in the later 
years, and is the memory of, ``Mom, you know, is not moving 
around as much. Mom lost weight.'' With this system we are 
trying to create that type of memory to the benefit of the 
resident.
    The Chairman. Thank you. That was a fascinating 
demonstration, and to have it live, show that kind of 
interconnectivity is phenomenal.
    Let us start with our questions, and Senator Dole, you have 
mentioned you have some so why do we not start with you? Please 
proceed.
    Senator Dole. Let me ask Ms. Lundberg. I know that some 
families have expressed concerns with some sensor technology 
because of the privacy issue. This committee has addressed 
numerous times in the past the growing concerns regarding 
crimes that target older individuals. Are there safeguards in 
place that protect a senior's privacy, and would you recommend 
any specific safeguards? Because obviously this is tracking all 
of the movements, as well as the visitors. How would you 
address that privacy aspect?
    Ms. Lundberg. The access to the information is password 
protected. You have to know how to get there to begin with, and 
then it is password protected.
    The type of information we are gathering is not medical 
information. It would seem to me that--I cannot visualize how 
that would benefit somebody that would try to do harm to an 
elder. It has helped actually. When there is suspicion of any 
wrongdoing, it has helped in the investigation to actually 
protect our elders. So it has been a benefit to have that 
information. Did I answer that well enough?
    Senator Dole. That is good. With the systems that your 
company is developing, is it possible for those who suffer from 
cognitive decline, who would traditionally be 
institutionalized, to continue to live an otherwise normal life 
with assistance from community based technology? Could your 
Extended Family Residence be the new model for long-term care 
in the United States?
    Ms. Lundberg. Actually, that is what we are hoping. We feel 
that we have been very successful in accommodating residents 
with Alzheimer's and other dementias. The campus, it is not 
just the technology in this case, it is also the design of the 
buildings, and how it is being operated.
    A good example is one of our residents named Bob, who has 
quite a bit of dementia, the other day he was telling me that 
he used to play for the youth symphony, and it was based on 
some interaction that we had. He also goes around walking quite 
a bit, and he checks on the organic garden that we have, and he 
went back to tell the chef that there were fresh brussel 
sprouts, and so then the chef went and picked them and cooked 
them. So those are some of the normal things that people 
experience. Because we have the technology, we do not have to 
worry about Bob wandering off and getting into areas where he 
would be at danger.
    Another example of technology that is a little bit hard to 
demonstrate here is we are kind of on a hill, and at the top of 
the driveway that would exit to the neighborhood, we have a 
sprinkler because what we have found is that anybody, 
regardless of their cognitive ability, pretty much knows that 
they do not want to get wet. So when you get too close to the 
driveway, the sprinkler goes on, and people turn around. That 
has been extremely successful.
    Senator Dole. Very interesting.
    Mr. Dishman, Eric, if I may.
    Mr. Dishman. Sure.
    Senator Dole. North Carolina has many low-income seniors in 
rural areas, who want to live at home, but they require, as my 
mother, assisted living. In fact, I think 85 of our 100 
counties in North Carolina are designated as rural. These rural 
areas lack the technology, the infrastructure that is enjoyed 
in other parts of our State. For instance, they may lack high-
speed Internet. Obviously, that is something that we are hoping 
to correct, or the health care workers may not be trained in 
the newest technology. Do you foresee these technologies 
developing to the point where they are both financially 
accessible and able to be integrated and implemented in these 
more remote areas for this sector of the population?
    Mr. Dishman. That is a great question. I was thrilled to 
see President Bush yesterday actually out talking about wanting 
to have affordable broadband available to every home in the 
United States by 2007. There are some particular technologies 
that we could at some point go into detail on, and there are 
probably FCC and other regulations around a technology called 
WiMAX, which is really a technology about bringing high-speed 
wireless interconnectivity to every part of the Nation, and I 
think that is going to be an exciting technology that is really 
going to open up that potential for people over the coming 
three, four, maybe even sooner than that, if there are things 
that we can help to work on. I am not a WiMAX expert so I 
should not go too deep into policy issues.
    I think the magic of what a lot happening here 
technologically is, and with my own grandfather, he is not able 
to use a PC, but we are basically taking consumer electronic 
devices and putting PC functionality onto a TV, which he is 
very comfortable with, and what we are really trying to do is 
to figure out how to make consumer electronic devices that are 
in many people's homes, part of this home health care 
technology network. No need to go buy your own separate $2,000 
box. Use the infrastructure that you are familiar with and 
comfortable with, and some new really quite cheap technologies 
that help to interconnect those things and make them useful for 
people.
    Senator Dole. You just anticipated my next question, 
because I was going to say that seniors obviously have not had 
a lifetime of using computers and cutting edge technology, and 
obviously, some have difficulty adjusting their lifestyles to 
incorporate all of these new advances. So helping our seniors 
with education and information that helps them be more 
receptive to technology is so important, and outreach that will 
help to push assistive technology to areas that are fairly 
removed is very important I think.
    Mr. Dishman. I wanted to just comment on the privacy 
question as well.
    Senator Dole. Yes.
    Mr. Dishman. We have been testing these concept prototypes 
and we are actually testing some of the actual technologies 
here today with a whole range of seniors. The overwhelming 
response is that, ``Let me make that choice. Give me the 
ability to decide who gets that data,'' ``me'' being the senior 
if they are still cognitively capable. ``Give me that choice.'' 
We have found the privacy issue is almost like the fingerprint. 
Everybody has one, but they are all different. Some people do 
not want to share how many steps they take a day with somebody 
else. Others are like, ``I will share that data with anybody.'' 
Others say, ``I will share my medication compliance data with 
my daughter but not with my doctor.''
    We have to develop the system to make it easy enough and 
robust enough, and to do the training so that people can make 
the choice about who gets the data and how they are going to 
use the system, and I really agree with the issue of training 
people on using it so they can do that.
    Senator Dole. That is very helpful. Thank you.
    Just one final question to Mr. McConnell, please.
    There is much discussion about the impact of Alzheimer's on 
the aging community, but it is often accompanied by conditions 
that lead to physical complications. Have you been able to 
quantify the financial impact of Alzheimer's as an isolated 
condition? If so, what is its annual cost to the Medicare and 
Medicaid system?
    Mr. McConnell. We have not separated it out, because most 
people that have Alzheimer's disease are very elderly and they 
have other chronic conditions.
    Senator Dole. Physical conditions, right.
    Mr. McConnell. We know that when Alzheimer's is present and 
other physical disabilities are present, it costs Medicare 
three times as much to care for them. The reason for that is 
that the care is much more complicated. It is more difficult. 
Our system really is not set up to deal with people, as you 
know, that have multiple chronic conditions, particularly with 
cognitive impairment. So I think some of these technologies can 
help in providing better care, which will result in better 
quality of life and lower costs to Medicare.
    Senator Dole. All right. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Elizabeth, thank you, and thank you for your 
time with the committee today.
    Senator Dole. Yes, indeed.
    The Chairman. The questions I am going to ask, anyone of 
you can respond to, if you feel you have--I may direct it at 
one, but certainly all can respond to it.
    Lydia, the kind of visual locator, the technology that we 
sought, you demonstrate today, is that experimental or is that 
now available for direct application in facilities like yours?
    Ms. Lundberg. It is a prototype at our facility. However, 
we are in the process of trying to develop a package that can 
be purchased by other facilities. One of the big issues at this 
time is the hardware cost because we have to wire IR sensors 
into every room. We are actually working on a system, if it is 
successful, which would really take us the next step where we 
would only need four antennas for about a six-acre campus to 
locate people within one foot of each other. If that is 
successful, that would make it a lot easier.
    The Chairman. Does anyone else wish to respond to that 
particular question?
    Mr. Dishman. I often get questions about is this technology 
here now or is it 10 years off, and I think the answer is both/
and I will give you a simple example.
    The load cell sensors in the bed in Elite Care or the 
sensors that we are using just to know whether or not Mom 
opened her coffee cabinet, knowing that Mom did not get coffee 
today, might be a best indicator. Those are off the shelf, 
simple to use, here and now. The wireless connectivity is here 
and now.
    The research to figure out whether the way in which Mom is 
rolling around at night and the restlessness is an indicator of 
this particular disease. That may take 5, 7, possibly even 10 
years, because there are really hard computer science problems 
as well as clinical research that needs to be done.
    I think with almost all these systems, there is some low-
hanging fruit, to use the phrase, where elders could get value 
out of it today. People have seen our wireless technologies. I 
have gotten 30,000 e-mails from consumers in the last 6 months 
who have seen this and said, ``I could use that simple cabinet 
switch sensor now or the simple sensor that lets me know 
whether Dad has gotten up out of his chair or not, because he 
sits in the same chair most of the day.'' That is here and now.
    There are some things to do to get the market going and get 
the companies who are starting to productize those to focus it 
on this domain and somehow figure out a way to have it be 
assistive technology without calling it that, because nobody 
wants an assistive technology. It is just a technology that is 
part of their life.
    The Chairman. Yes?
    Mr. McConnell. Mr. Chairman, I think also that this will 
become more affordable as it is used more widely. For example, 
we are working with Joe and the MIT AgeLab on electronic 
tracking technology. We now have a safe return program, in 
which people register. It is a bracelet and a registry. You 
have to be found in order to be brought back home. We have just 
put out bids for companies to help us develop technology that 
will track people when they wander. That technology is likely 
to be relatively expensive now, but over time as the demand 
increases, we know that the cost will come down. So we are 
likely to see that the technology becomes more accessible in 
the future.
    The Chairman. Anyone else wish to respond to that?
    Mr. Coughlin. Mr. Chairman, one of the things I would also 
like to address, particularly picking upon Eric's point of 
affordability and reaching different populations, is not only 
do people not want assistive devices in their homes or have to 
purchase assistive technologies because of what that may mean 
to them symbolically, companies do not necessarily want to be 
in that market.
    The Chairman. Well, I was heading in that direction, so 
expand on that, and any other individual on the panel who has 
had that experience, why are companies resisting this?
    Mr. Coughlin. OK. Let me give one example of, for instance, 
the technology of making a cup of tea or not necessarily 
monitoring where people are in their facility or their home, 
but the idea of opening a cabinet or using the toilet or 
something like that would be very useful. We need to redefine 
these things as not just assistive technologies, but actually 
redefine them as lifestyle services that, in fact, many 
companies out there would be very interested to be able to do 
home delivery and know you are out of a product before you know 
you are out of a product, and try to reinvent the fact that 
people are out of milk in the refrigerator or they haven't 
touched their meds to be a way of triggering a CVS or a 
Walgreen's or triggering Wal-Mart to know that a home delivery 
is needed or something like. Extending the supply chain of 
industry to the shelf in the home is a way of making these 
things pay for thank you very much. Because if we continue to 
define these--frankly, as you know in politics and in markets, 
symbols and words are the currency of politics. If we continue 
to use the phrase ``assistive technology,'' this will go 
nowhere very quickly.
    To your question on why business is not interested, I came 
to the aging area because of my interest and research in older 
drivers, and the adage goes that you cannot create an old man's 
car, because a young man will never buy it and neither will an 
old man. The fact of the matter is today's older generation 
does not know that they are older; tomorrow's older generation, 
most of us at this table and behind us, will not accept that 
they are older. The fact of the matter is that corporate 
executives and the consumer themselves do not think that, A, 
they will ever need something called assistive technology, that 
is something my mother or grandmother needed; and, second, I am 
selling a lifestyle, not just a product.
    So really what we need to do is to think innovatively by 
stealth in trying to reinvent how people live at age, say, 45 
and 50 so that these things are in place when they are 75 and 
80. Therefore, then companies will find this of more interest 
and will invest as well.
    The Chairman. One of the things that I think, Eric, you 
alluded to and possibly you did, Martha, as it relates to 
application and how seniors may or may not use a certain 
technology, while a lot of this is coming online, there will be 
a substantial transition of time into the baby-boomer 
population that is growing rapidly smarter when it comes to 
technology. We have watched now the demographics or the numbers 
of the senior population going to the Internet. Why? So they 
can communicate with their grandkids. What was once a hurdle is 
no longer a hurdle, or it is but it is a necessity that they 
hurdle it. I am not so sure that we need to be terribly afraid 
of its application, more so the ability of the individual at 
the time to apply it or to use it, because that is going to be 
changing very rapidly over the next decade, as a lot of this 
comes online.
    Would you wish to respond to that, any of you? Martha?
    Ms. Pollack. Yes, I think you are absolutely right. I think 
there is a myth, a clear myth that older adults are afraid of 
technology. I can tell you when we have taken Pearl out to a 
nursing home, many of the residents there were just thrilled, 
just loved to interact with her. In fact, if I can share a 
quick anecdote, we were there one day. We were doing some field 
tests, and partway through the day, the battery died, 
completely died, and we had to cancel the field tests. The 
people who were scheduled and did not get their opportunity to 
interact with the robot were just sorely disappointed.
    So I don't think we have to worry as much about people 
being afraid of technology as we do about the very important 
issue you mentioned, which is making sure the technology is 
completely transparent, completely easy to learn, and perhaps 
making sure that it gets introduced at an earlier age so that 
by the time people begin to have cognitive decline, they are 
already familiar with the technology. Some of the kinds of 
systems I have talked about, reminder systems, frankly would be 
very valuable for many of us who are not yet older but who have 
very busy lives. If you get used to using this technology 
earlier on, you can continue to use it for a longer span.
    The Chairman. Certainly the staff has probably heard this 
analogy or observation one too many times. My mother-in-law 
lives in a retirement community in Tucson. The pool room that 
was once built into that retirement center for those who played 
pool disappeared. It is now a computer center. The reason was 
nobody played pool. But you go by there now, we were a small 
part of helping educate and move people in that direction 
because my wife is a bit more literate with computers than I 
and started teaching. Now the room is full at almost all hours 
of the day and night because, instead of having a computer in 
their residence, they go to the room and they interact, whether 
they are surfing the Net or if they are talking to their 
children or their grandchildren or e-mailing. It is absolutely 
a transition that I have watched, you know, visually and 
physically in the last decade as we visited that community and 
watched that transition go on. I find it really very 
fascinating.
    Affordability, again--excuse me, yes.
    Ms. Lundberg. If I could speak just a little bit to 
acceptance of technology.
    The Chairman. Yes.
    Ms. Lundberg. We have found that it is very accepted by our 
residents. We have the occasional person who refuses to have 
load sensors under the bed for varying reasons. But other than 
that, people like the idea that they can be located anywhere, 
if they have any issues, problems. Then we also have computers 
in every person's room, and they do like to take advantage of 
the e-mail to stay in touch with their grandkids and also do 
some videoconferencing.
    The Chairman. Ron, the disability community is in many 
respects further ahead than the aging community in probably 
understanding and applying assistive technology. What do you 
believe are the major lessons that we might draw from the 
experience of the disability community in this area?
    Mr. Seiler. Well, I think the major lesson is, first of 
all, that it works. Assistive technology can have a significant 
impact, and I often point to my son as an example. Larkin, my 
23-year-old son, with cerebral palsy, is probably getting ready 
to go to work this morning and, you know, is using a variety of 
technologies that allow him to work.
    Collectively, though, I think in terms of the assistive 
technology projects, what we have learned is that technology, 
again, can be very effective, but the trick is you have got to 
have those support services in place. You just cannot throw the 
technology out there and expect people to be successful in its 
use.
    In particular, with older people, I think, again, we are 
talking about this transition and this acceptance of 
technology. I think with older persons we have to be 
particularly sensitive to that issue, that, in fact, there is a 
lot of education that has to take place. The family members 
have to be educated. Clearly, the professionals and 
paraprofessionals who work with elders have to be familiar with 
how the technology works.
    So, again, I think the major message here is that 
technology is wonderful, it is fabulous, it works. But without 
those support services, it will not be successful. The thing 
that concerns me--and we found this early on, way back in the 
early 1990's when we started these projects--is that technology 
often is abandoned. Early studies show that up to one out of 
three devices that were purchased ended up sitting on a shelf 
collecting dust.
    So we have to be very cautious, and one of the things that 
I have really been focused on is the front end of the process; 
that when we go through that selection of the device, the 
assessment, the evaluation to determine what device is 
appropriate for that person, that we do a good job there, that 
we use appropriate best practice protocols to do that. Because, 
in fact, if we don't pick the technology that matches the needs 
of that person, they will not use it. You know, this is 
expensive stuff, and if we buy things that are not used, then 
we are wasting an awful lot of resources.
    So, for me, that front end, the assessment and evaluation 
is very critical, and there are some issues there because, in 
fact, you know, at this point it is very fragmented. Who is 
performing these evaluations? Who is going out and matching the 
person with that technology? It is a real mixed bag right now. 
In many cases, you know, the medical professionals that are 
involved do a fine job. But in many cases, we have vendors that 
are involved with that assessment process, and sometimes I 
don't know that that is appropriate.
    So I do get concerned about the abandonment rates that we 
saw early in the 1990's that that not be repeated with the 
older population.
    The Chairman. Let me ask, Eric, do you wish to respond to 
that?
    Mr. Dishman. Mr. Chairman, I wanted to add one thing. I 
think we are at a big transition point here in the research of 
these kinds of devices in that we are actually moving from 
devices to systems. We are not very good at doing this kind of 
research in our Nation. Most of the disability research that 
has been done has been on a particular device, and you can do 
your controlled study. You put the device in this house and the 
device into this house--or you do not put it into this house, 
and you compare them.
    The research challenge as we go forward in this kind of 
more connected world where the medication caddy can speak to 
the cell phone, can speak to the TV, this is just enormously 
difficult research to do. It takes more researchers coming 
together because there are multiple touch points that people 
are interacting with, not just a single device, which also 
means it is very difficult to know what part of that whole 
system was the magic for that particular consumer. It may have 
been getting the medication reminders on their TV.
    This is a new frontier of research that traditionally the 
U.S. has not funded a lot of systems research. We fund API 
going and looking at a device as opposed to bringing multiple 
principal investigators together to build all the pieces, get 
them all working together, and test the value of the whole 
system as opposed to the single device.
    Mr. Coughlin. I would also encourage the committee to 
really consider the idea of even going beyond systems and 
looking at solutions. In fact, in part of the research that 
needs to be done on whether these technologies are efficacious 
and whether they will continue to be adopted or go the way of 
my treadmill as a sweater dryer is whether or not they connect 
to what. What is the value? You mentioned the older adults 
using computers now. They are using the computers because they 
can contact their grandkids, they can find health care 
information and the like. There was a value that was worth 
overcoming the usability dilemma.
    Having talking houses and sensors talk to each other and 
having someone monitor remotely has a certain value. It has 
more value, however, for those who are not yet in the position 
where they are required to use these if it connects to local 
commercial providers or Government agencies that provide 
services.
    So I would say this is now a research agenda, not on 
devices, not on systems, but how it connects to all those 
institutions and total solutions that are out there.
    I would also suggest that we need to have a greater sense 
of urgency. We don't have the luxury any longer of digging deep 
into the research. We need to move forward quickly because it 
will take years, if you will, to deploy these things into 
people's homes, cars, retail stores, and the like. The average 
car, for instance, we keep our average car about 8.3 to 9 
years. That means even if you had everything necessary today 
for safety in an older driver, it will take at least 10 to 15 
years before it actually impacts the fleet.
    One last comment and I will stop. The issue on usability, 
we like to talk about older adults and whether they like 
technology or not or whether they can use it. The fact of the 
matter is that in about 20 to 30 years, our children will be 
sitting at these tables and be talking about why is it that my 
parents seem enamored with the use of icons, and why does 
everything look like something they used to call a PalmPilot? 
The fact of the matter is technology continues to change, and 
our mental model of how things actually work is formed early 
on. The technology keeps moving. We need to move with it and, 
incredibly enough, make design more usable not just for our 
parents, but we are going to need that as well.
    The Chairman. A variety of you have offered suggestions, 
and we appreciate that a great deal. Let me ask this question. 
Joe, you had mentioned in one instance that probably it was 
better that Government got out of the way in some respects. Yet 
Government can be a tremendous facilitator if it approaches it 
right.
    We are having a debate on the floor right now about taxing 
the Internet, and we are not going to go any further than to 
suggest that Government really did create the Internet and then 
it kind of got out of the way. It was initially Government 
dollars that got there, but then it was Government who got out 
of the way, and the private sector took it over and ran with 
it. Now we are trying to get back in the way for a variety of 
different reasons because this technology has matured to a 
level where it is now being used in ways that were probably not 
originally anticipated. That is all well and good.
    So now the great debate going on over there is: Should we 
get back in the way? Or should we stay out of the way and let 
this marketplace work and continue to work?
    The question I am going to ask all of you is: If the 
Government today, this Government, this Senate, Judd Gregg's 
committee--who mentioned Senator Gregg? All right, Ron--had 
half a billion dollars to spend in your area, your area of 
interest, whether it be in tax credits, incentivizing, or 
whether it be in actual program, whether it be in grants, where 
would you recommend that money get spent if that money were 
available? Because we all know how scarce resources are. They 
always are scarce, and especially if an advocate like myself 
would suggest as a member of the Appropriations Committee that 
it get spent in a new area, it is much less likely to go there 
because we are habitual people and we like to spend in areas 
that we traditionally know about.
    Eric, let me start with you.
    Mr. Dishman. Well, if you are asking where would the 
money--where should the money be housed, I think one of the 
important things that we have determined in CAST is that the 
right way to house a bucket of money like that is to actually 
do a cross-agency funding initiative. There are great 
technologies in DARPA and DOD, and before 9/11, there used to 
be a lot of attention from those folks on issues of aging in 
place and home health care and those kinds of sensor 
technologies.
    What we really need is to bring together places like NIST 
and NSF and NIH where we bring the clinical, the systems, you 
know, the future sensors that they are working on the 
battlefield, bring all of that together in one domain focused 
on the aging-in-place challenge. Then outside of that, I think 
we ought to be identifying the top conditions, if you will, or 
the top behavioral changes that these technologies could help 
do.
    The only way we are really going to solve the aging 
challenge and the economic challenge is to actually change 
people's behavior before they start having some of these 
problems, some of the ones that are in the news today of 
medication errors and compliance, but in the home not just the 
hospital. Obesity, we are doing little experiments with some of 
these technologies to help know when your walking buddy--if you 
are 80 and you are at home alone, is your walking buddy going 
out for a walk now because they have picked their shoes and 
their jacket up and that might be a good time for you to go 
with them.
    I believe that there are ways to use these technologies to 
connect people with other people outside of the institutional 
care setting, and that is where we are going to get the huge 
economic cost savings. So identifying some of those things like 
how do we get people to go out and actually walk 10,000 steps a 
day. We have said we want them to do that. How can technology 
be deployed to actually do that? How can we help reduction 
medication errors in the home? How can we help people with 
cognitive decline and mobility? Those would be four of the big 
areas.
    Chairman Craig. Thank you.
    Martha.
    Ms. Pollack. Yes, largely I want to echo what Eric has 
said. I think incentivizing companies is fine for relatively 
short-term solutions, but most of our companies have relatively 
short-term sights. When you look at the kind of technology that 
many of us are trying to build, the end product may look 
simple--in fact, it has to look simple if people with cognitive 
impairment are going to use it. But the design is anything but, 
and it requires the collaboration of large groups of 
multidisciplinary folks. It is difficult at this point to get 
sustainable funding for that.
    There are two other quick points I want to make. First, I 
want to stress that the hope of many people like myself is that 
while there is a reasonably sizable investment to be made up 
front, enabling people to age in place longer, to stay out of 
institutions, is an economic win. It is a win-win situation 
because virtually all studies show that people want to remain 
at home longer. There is an enormous cost savings in enabling 
them to do that.
    The final thing I would like to say is if I had a huge pot 
of money at my disposal, I would like to reserve at least a 
little bit of it to get some folks who are not technologists 
but who are policy experts to consider the policy implications 
of privacy. I agree with my fellow panelists that, by and 
large----
    Chairman Craig. Policy implications of privacy.
    Ms. Pollack. I am sorry. I meant the development of 
policies that would help protect the privacy of people using 
this technology. Many older adults whom we have talked with are 
willing to trade some concern about privacy for the ability to 
have technology that can help them stay at home longer. But I 
am concerned that as this technology becomes widespread, there 
are potentials for abuse. We can solve some of that 
technologically, with techniques like encryption, but some of 
that has to be done at a policy level.
    Chairman Craig. I don't disagree with that.
    Yes, Lydia?
    Ms. Lundberg. Being from private industry, obviously I 
would like to see more funding for grants to private companies. 
Currently it is very difficult to get any kind of research 
dollars. We did apply for the NIST grant, and I don't know if 
that will go anywhere. Because with the type of system that we 
have, there are a lot of things that can be developed. For 
instance, we are working toward having more tutorial 
information to the caregivers to make them smarter through the 
PDA, which may be extinct at some point, but right now it is 
the hot thing, where we could actually tutor them specific to 
the resident that has implications across not just in 
facilities but also in people's homes for non-traditional 
caregivers.
    Then also to make that easier for companies to work 
together with grant money. Right now I think that is very hard 
to do.
    The Chairman. OK. Joe?
    Mr. Coughlin. Two things that Government does best is not 
necessarily spending money but agenda setting and creating an 
environment of innovation. So this committee hearing is part of 
the agenda-setting issue of getting this on people's screens.
    Second, though, I really do think if I had that bucket of 
money, would be to create the markets that business is not sure 
exist. I think the money will come for research from other 
sources other than Government if, in fact, they believe that 
there is something that someone will buy and that there are 
people out there to buy it. So in that sense, we need to set 
the personal agendas of families to think about how they invest 
in their own homes and the homes of their parents with respect 
to technology and related services. We also need to have 
companies incented, whether it is a tax credit or otherwise, to 
create the innovations necessary to get these products out 
there.
    Today, unfortunately, we are confronted by reimbursement 
paralysis or what I like to call ``innovation by regulation.'' 
The devices or the specifically, if you will, of innovation is 
now based upon whether CMS will reimburse it. We need to 
convince industry and all those other places of innovation that 
there is another revenue stream that they can aim for. I would 
say that the research dollars that we have today in places like 
U.S. Department of Transportation Research Centers, the 
Department of Education, and certainly NIH have done a very 
good job of creating the seed corn. Now what we need to make 
sure that these things become affordable over time and move 
quickly is to make sure that people have the money and the 
incentive to do so.
    Chairman Craig. Thank you.
    Steve?
    Mr. McConnell. Mr. Chairman, it seems that the Government 
has a stake in at least four things: first, the cost of 
Medicare and Medicaid, and there ought to be some investment in 
preventing some of the diseases like Alzheimer's that 
contribute to the need for the issues we are talking about 
today.
    Second is in the protection of people's rights. I think 
this is a whole new area. We are talking about people with 
cognitive impairments where decisions about privacy will 
probably be made, certainly for people in later stages of 
Alzheimer's, by a family member or a surrogate. We have done a 
lot of work in that area regarding participation in research, 
but we need to develop those ideas and help people understand 
what are the tradeoffs I think people are willing to make 
tradeoffs but we have not defined that area very well.
    Third is creating awareness, this hearing and other kinds 
of things that help people just know about these issues. Most 
Americans don't know even the little bit we are talking about 
here today, and this hearing can help, especially with the 
presence of C-SPAN.
    Finally, I think some incentives for industry--I mentioned 
the imaging initiative where you have the Government, NIH, and 
private industry working together. There are ways that we can 
incentivize industry to invest in this area.
    The Chairman.. Ron.
    Mr. Seiler. This will come as no surprise, but, of course, 
I would endorse that some of those dollars go to the Tech Act 
projects. At this point we have got a huge mandate with not a 
lot of funds to accomplish that. But maybe beyond that, I would 
like to see some dollars to increase the capacity of the aging 
networks in all the States to provide AT services, and Idaho is 
a perfect example, working with our aging network over the past 
10 years. Their capacity to deliver AT services to elders in 
rural areas has really increased as a result of that 
interagency collaboration between the Tech Project and the 
aging network. I would like to see that encouraged in whatever 
way would be appropriate.
    Obviously, to echo some of the previous comments, 
increasing awareness about assistive technology, in particular 
that focus on rural areas where those things are so difficult 
to deliver. Also, training, education, training of older folks, 
obviously their family members, but in particular, with 
professionals. We don't see a lot of pre-service training 
programs in this country that talk about assistive technology, 
at least in my neck of the woods. So I would like to see a lot 
more training take place at the pre-service and in-service 
level related to assistive technology.
    I guess in closing, what I would like to do is maybe put in 
a notion about low technology. For me, it is very--and I am the 
first one to admit I can be very seduced by some of the high-
tech wonderful solutions that we see. But we should never 
overlook the role of low-tech solutions, simple devices that 
can help older folks to function in the kitchen, in the 
bathroom, those kind of things. You know, in this current 
economic climate, I just see that as being very viable and 
somehow we should stimulate the use of low-tech devices and not 
just, you know, focus on the high-tech stuff.
    The last one, I would like to see some resources go into 
tech transfer, and we have heard this earlier, just getting 
the--again, as Eric mentioned, all these wonderful technologies 
that are in the lab, how do we get these out to real people in 
the real world? In particular, how do we provide, you know, 
those solutions into the rural areas? That is the lens that I 
always look through. How do we get it out to the people living 
in the rural areas?
    The Chairman. Well, I thank you all very, very much for 
your time before the committee today, your presentations, your 
demonstrations, your suggestions.
    I will say I recently introduced a piece of legislation 
recognizing that a major part of caregiving is done by families 
and individuals and not by institutions. Yet we have not--we 
are trying to recognize through tax credits and by lifting that 
cap dramatically that by doing so and in an identifiable way 
you actually are creating a greater marketplace that will 
incentivize that individual who is giving the care to begin to 
look at some of these technologies that may assist her, 
dominantly--his or her responsibility as it relates to the 
burden involved. That is the toughest one of all. It is a 
burden of responsibility and love that gives us those 
statistics that I think you had mentioned, Joe, and others, 
that are pretty dramatic out there and yet very real.
    It is my great hope that not only will that assist, but it 
also continues to recognize what most Americans really do want 
to do and what we should continue down through our culture in 
time is that families care for families and work to continue to 
do that connectivity where it exists and where we can help 
further that kind of caregiving. So that is one thing that we 
have looked at, and there will be others along the way. But I 
must tell you, we thank you very much for being here today, 
taking time from your schedules to add to this committee's 
record. We hope it will be valuable, if you will, in creating 
that, first of all, awareness agenda and ultimately then the 
environment in which some of your ideas and thoughts can 
flourish.
    Thank you all, and the committee will stand adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] T4289.109

[GRAPHIC] [TIFF OMITTED] T4289.110

[GRAPHIC] [TIFF OMITTED] T4289.111

[GRAPHIC] [TIFF OMITTED] T4289.112

[GRAPHIC] [TIFF OMITTED] T4289.113

[GRAPHIC] [TIFF OMITTED] T4289.114

[GRAPHIC] [TIFF OMITTED] T4289.115

[GRAPHIC] [TIFF OMITTED] T4289.116

[GRAPHIC] [TIFF OMITTED] T4289.117

[GRAPHIC] [TIFF OMITTED] T4289.118

[GRAPHIC] [TIFF OMITTED] T4289.119

[GRAPHIC] [TIFF OMITTED] T4289.120

[GRAPHIC] [TIFF OMITTED] T4289.121

[GRAPHIC] [TIFF OMITTED] T4289.122

[GRAPHIC] [TIFF OMITTED] T4289.123

[GRAPHIC] [TIFF OMITTED] T4289.124

[GRAPHIC] [TIFF OMITTED] T4289.125

[GRAPHIC] [TIFF OMITTED] T4289.126

[GRAPHIC] [TIFF OMITTED] T4289.127

[GRAPHIC] [TIFF OMITTED] T4289.128

[GRAPHIC] [TIFF OMITTED] T4289.129

[GRAPHIC] [TIFF OMITTED] T4289.130

[GRAPHIC] [TIFF OMITTED] T4289.131

[GRAPHIC] [TIFF OMITTED] T4289.132

[GRAPHIC] [TIFF OMITTED] T4289.133

[GRAPHIC] [TIFF OMITTED] T4289.134

[GRAPHIC] [TIFF OMITTED] T4289.135

[GRAPHIC] [TIFF OMITTED] T4289.136

[GRAPHIC] [TIFF OMITTED] T4289.137

[GRAPHIC] [TIFF OMITTED] T4289.138

[GRAPHIC] [TIFF OMITTED] T4289.139

[GRAPHIC] [TIFF OMITTED] T4289.140

[GRAPHIC] [TIFF OMITTED] T4289.141

[GRAPHIC] [TIFF OMITTED] T4289.142

[GRAPHIC] [TIFF OMITTED] T4289.143

[GRAPHIC] [TIFF OMITTED] T4289.144

[GRAPHIC] [TIFF OMITTED] T4289.145

[GRAPHIC] [TIFF OMITTED] T4289.146

[GRAPHIC] [TIFF OMITTED] T4289.147

[GRAPHIC] [TIFF OMITTED] T4289.148

[GRAPHIC] [TIFF OMITTED] T4289.149

[GRAPHIC] [TIFF OMITTED] T4289.150

[GRAPHIC] [TIFF OMITTED] T4289.152

[GRAPHIC] [TIFF OMITTED] T4289.153

[GRAPHIC] [TIFF OMITTED] T4289.154

[GRAPHIC] [TIFF OMITTED] T4289.155

[GRAPHIC] [TIFF OMITTED] T4289.156

[GRAPHIC] [TIFF OMITTED] T4289.157

[GRAPHIC] [TIFF OMITTED] T4289.159

[GRAPHIC] [TIFF OMITTED] T4289.160

[GRAPHIC] [TIFF OMITTED] T4289.161

[GRAPHIC] [TIFF OMITTED] T4289.162

[GRAPHIC] [TIFF OMITTED] T4289.163

[GRAPHIC] [TIFF OMITTED] T4289.164

[GRAPHIC] [TIFF OMITTED] T4289.165

[GRAPHIC] [TIFF OMITTED] T4289.166

[GRAPHIC] [TIFF OMITTED] T4289.167

[GRAPHIC] [TIFF OMITTED] T4289.168

[GRAPHIC] [TIFF OMITTED] T4289.169

[GRAPHIC] [TIFF OMITTED] T4289.170

[GRAPHIC] [TIFF OMITTED] T4289.171

[GRAPHIC] [TIFF OMITTED] T4289.172

[GRAPHIC] [TIFF OMITTED] T4289.173

[GRAPHIC] [TIFF OMITTED] T4289.174

[GRAPHIC] [TIFF OMITTED] T4289.175

[GRAPHIC] [TIFF OMITTED] T4289.176

[GRAPHIC] [TIFF OMITTED] T4289.177

                                 <all>

</pre></body></html>
